No.21-L94

Iu rHu

SupnruE CoURT oF THE UNTrno Srargs
Cern'oRxre TRucrn tc AssocrertoN, INC.,

ET AL.,

Petitioners,
v.
RoBERT BoNTA, IN HIS OFFICIAL CAPACITY AS THE
ATToRNEY GSNERAL oF THE Stlrn or CatIFonNrA5 ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the United States

Court of Appeals for the Ninth Circuit

Pnoor or suRvrcE nt.*n Ducran s.Trox Punsuanvr ro supnmrs Counr Rurr 29.s(c)

1.

I am over the age of 18 years and am not a party to this action.

2.

I certify that on September

1.0, 2021., at the direction of counsel for amici curiae, t}ree copies of, the
Bief of Ameican Trucking Associations, lnc. and Truckload Cariers Association, as Amicui Cuiae in Support
of Petitioners were served on each party via First Class mail at the following addresses:

Charles Rothfeld
Mayer BrownLLP
1999KSt. NW
Washington, DC 20006
Counsel for Pehhoners

Stacey Leyton
Altshuler Berzon LLP
177 Post Street, Suite 300
San Francisco, CA 94108
Co un s el fur Re sp on dent lnternation al
B r o th erho o d of T e ams t er s

Sarnuel Thomas Harbourt

Califomia Dept. of ]ustice
Office of the Solicitor General
455 Golden Gate Ave. Suite 11000
San Francisco, CA 941"02
Counsel for Respondmts Robert Bonta et al.
3.

I swear under penalty of perjury that the foregoing is true and corect

Buauy r,

Lisa Farnsworth

-

S?l

FIBP Legal - 2818 Fallfax Drive Falls Church V A 22042 - 703 289 9505

,&r,

